                                              EMPLOYMENT AND TRAINING
                                              ADMINISTRATION

Office of Inspector General—Office of Audit




                                              WELFARE-TO-WORK GRANT
                                              NATIONAL PUERTO RICAN FORUM, INC.




                                                               Date Issued: March 31, 2006
                                                               Report Number: 02-06-201-03-386
U.S. Department of Labor                              March 2006
Office of Inspector General
Office of Audit                                       WELFARE-TO-WORK GRANT – NATIONAL
                                                      PUERTO RICAN FORUM, INC.

BRIEFLY…                                              WHAT OIG FOUND
Highlights of Report Number: 02-06-201-03-386, to     The audit found 1) costs were not reasonable,
the Assistant Secretary for Employment and            allowable, and allocable to the WtW grant,
Training.                                             resulting in questioned costs of $424,080. The
                                                      questioned amount primarily resulted from
WHY READ THE REPORT                                   unallocable costs, missing supporting
The National Puerto Rican Forum, Inc. (NPRF)          documentation, and lack of grant officer
was awarded a $4 million Welfare-to-Work              approval for equipment purchases and
(WtW) grant. The grant required NPRF to               leasehold improvements; 2) participants served
provide transitional assistance to shift welfare      were eligible for the WtW program; and 3)
recipients into unsubsidized employment, which        NPRF measured, reported, and exceeded its
would provide good career potential for               enrollment goals; however, adequate
achieving economic self-sufficiency. Further,         placement information was not maintained.
NPRF is a not-for-profit organization whose
mission is to empower Latinos and other               WHAT OIG RECOMMENDED
minorities to achieve socio-economic parity
through education and economic advancement.           We recommended that the Assistant Secretary
This report discusses issues surrounding costs        for Employment and Training 1) recover
charged to the WtW program, participant               questioned costs of $424,080; 2) ensure that
eligibility and performance.                          NPRF implements systems to properly allocate
                                                      personnel costs to final cost objectives,
WHY OIG DID THE AUDIT                                 adequately documents costs, obtains prior
The OIG conducted a performance audit to              approvals where required and claims indirect
answer the following questions:                       costs in accordance with the grant agreement
                                                      and applicable Federal regulations; and 3)
                                                      ensure NPRF obtains and maintains accurate
•   Were costs reasonable, allowable and              performance information on current and future
    allocable to the WtW grant?                       awards, as required by grant provisions.

•   Were participants eligible for the                In its response to the draft report, NPRF
    program?                                          indicated that an electrical fire at the
                                                      program site, subsequent moves to new
•   Were performance results measured,                locations and miscommunications
                                                      impacted the availability of some
    reported and achieved?
                                                      required documentation. NPRF stated
                                                      that it will put in measures to prevent
READ THE FULL REPORT                                  reoccurrence of these conditions on
To view the report, including the scope,
                                                      future Federal awards; however, NPRF
methodology, and full agency response, go to:         requested that questioned costs be
http://www.oig.dol.gov/publicreports/oa/2006/02-06-   waived. Further, it stated that it has no
201-03-386.pdf.                                       doubt the service levels reported by
                                                      NPRF were correct.

                                                      Since no additional information was provided
                                                      that materially affects the report, our report
                                                      findings and recommendations remain
                                                      unchanged.
                                                                                                 Welfare-to-Work Grant
                                                                                      National Puerto Rican Forum, Inc.



Table of Contents
                                                                                                                         PAGE

EXECUTIVE SUMMARY ................................................................................................ 2


ASSISTANT INSPECTOR GENERAL’S REPORT ........................................................ 5


RESULTS AND FINDINGS ............................................................................................ 5

     1. Costs were not reasonable, allowable, and allocable to the
        WtW grant, resulting in questioned costs of $424,080 .................................... 5

     2. Participants were eligible for the WtW program ............................................ 9

     3. NPRF measured, reported, and exceeded its enrollment goals;
        however, adequate placement information was not maintained .................... 9

EXHIBIT ........................................................................................................................ 13

     Schedule of claimed and questioned costs ........................................................ 15

APPENDICES ............................................................................................................... 17

     A. Background ...................................................................................................... 19

     B. Objectives, Scope, Methodology, and Criteria .............................................. 21

     C. Acronyms and Abbreviations.......................................................................... 23

     D. Agency Response ............................................................................................ 25




U.S. Department of Labor—Office of Inspector General                                                                             1
Report Number: 02-06-201-03-386
Welfare-to-Work Grant
National Puerto Rican Forum, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




2                                   U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 02-06-201-03-386
                                                                    Welfare-to-Work Grant
                                                         National Puerto Rican Forum, Inc.



Executive Summary
This report summarizes the results of our performance audit of a $3,994,316 Welfare-to-
Work (WtW) grant awarded to the National Puerto Rican Forum, Inc. (NPRF) for the
period October 1, 1999, through March 31, 2003. The grant required NPRF to provide
transitional assistance to shift welfare recipients into unsubsidized employment
providing career potential for achieving economic self-sufficiency. NPRF was to enroll
400 participants and place 324 participants into unsubsidized employment. Services
provided consisted of English as a Second Language, General Educational
Development, Microsoft Office, math, and resumé writing classes. Our objectives were
to determine the following:

     •    Were costs reasonable, allowable and allocable to the WtW grant?

     •    Were participants eligible for the program?

     •    Were performance results measured, reported and achieved?


Results

Costs were not reasonable, allowable, and allocable to the WtW grant, resulting in
questioned costs of $424,080. Participants served were eligible for the WtW program.
NPRF measured, reported, and exceeded its enrollment goals. However, adequate
placement information was not maintained.

   1. Questioned costs of $424,080 consisted of personnel costs of $162,883 and non-
      personnel costs of $261,197. The questioned amount primarily resulted from
      unallocable costs, missing supporting documentation, and lack of grant officer
      approval for equipment purchases and leasehold improvements.

   2. Participants served were eligible for the WtW program. The majority of
      participants were hard-to-employ individuals. They received Temporary
      Assistance for Needy Families for at least 30 months, had not completed
      secondary school and had poor work histories.

   3. NPRF measured and reported program results on its WtW Competitive Grant
      Cumulative Quarterly Financial Status Reports (FSR). NPRF exceeded its
      enrollment goals; however, adequate placement information was not maintained.
      Further, the grant did not contain performance goals pertaining to employment
      retention and wages.




U.S. Department of Labor—Office of Inspector General
Report Number: 02-06-201-03-386                                                         3
     Welfare-to-Work Grant
     National Puerto Rican Forum, Inc.

     Recommendations

     We recommend that the Assistant Secretary for Employment and Training:

1.       1. Recover questioned costs of $424,080;
2.
         2. Ensure that NPRF implements systems to properly allocate personnel costs to
            final cost objectives, adequately document costs, obtain prior approvals where
            required and claim indirect costs in accordance with applicable Federal
            regulations and provisions set forth in the grant agreement; and

         3. Ensure NPRF obtains and maintains accurate performance information on
            current and future awards, as required by grant provisions.


     Agency Response

     NPRF provided a written response on March 28, 2006. The grantee stated that
     an electrical fire at the program site, subsequent moves to new locations and
     miscommunications impacted the availability of some required documentation.
     NPRF stated that it will put in measures to prevent reoccurrence of these
     conditions on future Federal awards; however, NPRF requested that questioned
     costs be waived. Further, it stated that it has no doubt the service levels reported
     by NPRF were correct.

     The NPRF response in its entirety is attached as Appendix D.

     OIG Conclusion

     We have considered NPRF’s response to the draft report. No additional information
     was provided that materially affects the report. Therefore, the report findings remain
     unchanged. The recommendations will be resolved during DOL’s formal audit
     resolution process.




     4                                       U.S. Department of Labor—Office of Inspector General
                                                                 Report Number: 02-06-201-03-386
                                                                            Welfare-to-Work Grant
                                                                 National Puerto Rican Forum, Inc.


U.S. Department of Labor                          Office of Inspector General
                                                  Washington, DC 20210




                         Assistant Inspector General’s Report




Ms. Emily Stover DeRocco
Assistant Secretary for
 Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, DC 20210


We conducted a performance audit of the $3,994,316 WtW grant number
Y-7889-9-00-81-60 awarded to NPRF for the period October 1, 1999 through
March 31, 2003. The grant required NPRF to provide transitional assistance to shift
welfare recipients into unsubsidized employment providing career potential for achieving
economic self-sufficiency. NPRF was to enroll 400 participants and place 324
participants in unsubsidized employment. The audit objectives were to determine the
following:

   1. Were costs reasonable, allowable and allocable to the WtW grant?

   2. Were participants eligible for the program?

   3. Were performance results measured, reported and achieved?

We conducted the audit in accordance with Government Auditing Standards issued by
the Comptroller General of the United States. Our audit objectives, scope,
methodology, and criteria are detailed in Appendix B.


Objective 1 – Were costs reasonable, allowable and allocable to the WtW grant?

Results and Findings – Costs were not reasonable, allowable, and allocable to the
WtW grant, resulting in questioned costs of $424,080.

NPRF claimed costs of $3,994,316 under grant number Y-7889-9-00-81-60.
Questioned costs of $424,080 consisted of personnel costs of $162,883 and non-
personnel costs of $261,197. Questioned costs primarily resulted from unallocable


U.S. Department of Labor—Office of Inspector General
Report Number: 02-06-201-03-386                                                                 5
Welfare-to-Work Grant
National Puerto Rican Forum, Inc.

costs, missing supporting documentation, and lack of grant officer approval for
equipment purchases and leasehold improvements.

Personnel Costs - $162,883

NPRF claimed salary and related fringe benefit costs of $1,993,871. An examination of
timesheets disclosed questioned personnel costs of $162,883 consisting of $72,528 for
non-WtW activities, $45,361 for costs that were not supported, $4,875 for duplicate
salary costs, and $40,119 for related fringe benefit costs.

Non-WtW Activities

Salary costs totaling $72,528 for non-WtW activities were allocated to the grant.
Timesheets and labor distribution records disclosed that salary costs allocated to the
WtW grant were for individuals who worked on non-WtW activities. NPRF did not follow
its accounting policy manual that specifically stated labor distribution and fringe benefits
are based on approved and signed timesheets. NPRF applied budgeted percentages to
allocate salary costs without adjustment to reflect the actual salary distribution.

Office of Management and Budget (OMB) Circular A-122, Attachment B, Paragraphs
8.m(1) and (2)(a) state:

       (1) Charges to awards for salaries and wages, whether treated as direct
       costs or indirect costs, will be based on documented payrolls approved by
       a responsible official(s) of the organization. The distribution of salaries and
       wages to awards must be supported by personnel activity reports. . . .

       (2)(a) The reports must reflect an after-the-fact determination of the actual
       activity of each employee. Budget estimates (i.e., estimates determined
       before the services are performed) do not qualify as support for charges to
       awards.

Unsupported Salary Costs

There was a general ledger entry of $45,361 that resulted in increased salary costs to
the WtW grant. NPRF did not provide any supporting documentation to justify these
costs. The current NPRF Director, who was not employed at NPRF at the time of the
WtW grant, indicated the unsupported salary costs could be the result of a general
ledger entry error. NPRF’s accounting policy manual requires adequate substantiation
for all expenditures. Further, Federal regulations require grantees to document all costs
and retain evidence of claimed expenditures.

OMB Circular A-122, Attachment A, Section A.2.g states: “Factors affecting allowability
of costs. To be allowable under an award, costs must meet the following general
criteria . . . be adequately documented.”



6                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-06-201-03-386
                                                                          Welfare-to-Work Grant
                                                               National Puerto Rican Forum, Inc.

Duplicate Salaries

A general ledger adjustment of $4,875 for the former NPRF Director’s salary was made
even though the salary was included in the indirect cost pool and allocated to the WtW
grant.

OMB Circular A-122, Attachment A, Section B.1 states:

       Direct costs are those that can be identified specifically with a particular
       final cost objective, i.e., a particular award, project, service, or other direct
       activity of an organization. However, a cost may not be assigned to an
       award as a direct cost if any other cost incurred for the same purpose, in
       like circumstance, has been allocated to an award as an indirect cost.

Related Fringe Benefits

Questioned fringe benefit costs of $40,119 are the average fringe benefit rate of 32.68
percent applied to total questioned salary costs of $122,764.

Non-Personnel Costs - $261,197

NPRF claimed non-personnel costs of $2,000,445. An examination of general ledger
entries revealed questioned costs of $261,197 consisting of equipment of $186,989,
leasehold improvements of $43,019, and indirect costs of $31,189.

Equipment Purchases

NPRF purchased equipment for a network system that included computers, computer
servers, workstations and network installation totaling $186,989. The original grant had
a budget of $28,100 for the purchase of computers and related items but was later
removed due to a budget modification. The ETA Federal Project Officer (FPO) did not
have records to indicate the approval of this purchase of equipment. In addition, NPRF
officials did not provide supporting documentation for $15,129 of the $186,989.

OMB Circular A-122, Attachment B, Paragraph 15b(1) states: “Capital expenditures for
general purpose equipment, buildings, and land are unallowable as direct charges,
except where approved in advance by the awarding agency.” In addition, The WtW
grant, Part IV Special Conditions, states: “Equipment: Awardees must receive prior
approvals from the DOL/ETA Grant Officer for the purchase and/or lease of any
equipment with a per unit acquisition cost of $5,000 or more, and a useful life of more
than one year.”




U.S. Department of Labor—Office of Inspector General
Report Number: 02-06-201-03-386                                                               7
Welfare-to-Work Grant
National Puerto Rican Forum, Inc.

Leasehold Improvements

NPRF incurred leasehold improvements of $43,019 for training, job placement, and
administrative offices specifically for the WtW grant. Contrary to OMB Circular A-122,
there was no prior approval for these costs. NPRF provided an e-mail and letter sent to
the FPO explaining that there was an electrical fire and assistance was needed for
relocation and alterations of the new facility. The FPO acknowledged the letter and
e-mail and indicated that there is no record of approval for leasehold improvements.

OMB Circular A-122, Attachment B, Paragraph 39 states: “. . . Special arrangement and
alteration costs incurred specifically for the project are allowable with the prior approval
of the awarding agency.”

Indirect Costs

We questioned $31,189 of indirect costs: $9,200 due to charges in excess of the grant-
specified indirect cost rate, and $21,989 due to questioned base cost. The grant
specified an indirect cost rate of 13.5 percent of total costs (Salaries and Fringe) of
$1,993,871. However, total indirect costs charged to WtW were $278,373. We
questioned $9,200 in excess of the maximum allowable indirect costs of $269,173.
Further, we questioned indirect costs of $21,989 which results from the application of
the grant specified rate of 13.5 percent to question base cost of $162,883.

Recommendations

We recommend that the Assistant Secretary for Employment and Training:

1. Recover questioned costs of $424,080.

2. Ensure that NPRF implements systems to properly allocate personnel costs to final
   cost objectives, adequately document costs, obtain prior approvals where required
   and claim indirect costs in accordance with applicable Federal regulations and
   provisions set forth in the grant agreement.

Agency Response

NPRF stated that during the course of the grant an electrical fire at the program
site required the immediate search for a new facility with as little service
disruption as possible. This circumstance, as well as two subsequent moves of
NPRF’s administrative offices and one move of the Chicago office, impacted the
availability of some of the required documentation. In addition, it stated that
there were areas of miscommunication, especially with respect to approvals, and
less than adequate record keeping. NPRF acknowledges the lack of adequate
record keeping and areas of miscommunication. It has indicated that it will put in
measures to ensure that these conditions do not reoccur on future Federal
awards; however, NPRF requested that questioned costs be waived.

8                                        U.S. Department of Labor—Office of Inspector General
                                                             Report Number: 02-06-201-03-386
                                                                      Welfare-to-Work Grant
                                                           National Puerto Rican Forum, Inc.



OIG Conclusion

We have considered NPRF’s response to the draft report. No additional information
was provided that materially affects the report. Therefore, the report findings remain
unchanged. The recommendations will be resolved during DOL’s formal audit
resolution process.


Objective 2 – Were participants eligible for the WtW program?

Results – Participants were eligible for the WtW program.

The grant requires that the provision governing WtW funds described in Title 20, Code
of Federal Regulations (CFR) Part 645.211 be met. The provision dictates that a
minimum of 70 percent of WtW funds must be spent to benefit hard-to-employ
individuals. Furthermore, no more than 30 percent of WtW funds may be spent to assist
individuals with long-term welfare dependency. The 70 percent eligibility criteria for
hard-to-employ required that an individual must be receiving Temporary Assistance for
Needy Families (TANF) for at least 30 months and must face at least two of three
barriers to employment (has not completed secondary school or obtained a certificate of
general equivalency; requires substance abuse treatment for employment; and/or has a
poor work history).

A statistical sample of 98 of the original list of 1,282 participant files showed that 79
sampled participants, or 81 percent, were hard-to employ individuals. They were TANF
recipients for at least 30 months, had not completed secondary school, and had poor
work histories. Further, participants were referred to NPRF by New York City and
Illinois Human Resource Administration which had screened participants for WtW
eligibility.


Objective 3 – Were performance results measured, reported and achieved?

Results and Findings – NPRF measured, reported, and exceeded its enrollment goals;
however, adequate placement information was not maintained.

NPRF measured and reported program results on its FSR. According to the grant,
NPRF was required to provide transitional assistance to place welfare recipients into
unsubsidized employment and achieve economic self-sufficiency. NPRF exceeded its
enrollment goals; however, NPRF did not maintain adequate placement information.
Further, the grant did not contain performance goals pertaining to employment retention
and wages.

The performance goals stated in the grant were to serve 400 participants and place 324
in unsubsidized employment. According to the instructions for reporting WtW

U.S. Department of Labor—Office of Inspector General
Report Number: 02-06-201-03-386                                                           9
Welfare-to-Work Grant
National Puerto Rican Forum, Inc.

competitive grants financial and participant data, grantees were to include all WtW
participants placed in unsubsidized jobs for the first time while receiving WtW services.

NPRF reported serving 1,544 participants. Further, although NPRF reported placing
522 participants in unsubsidized employment, it provided a list of only 409 such
participants. However, documentation, such as pay stubs or employer verifications to
confirm employment, was not provided.

We obtained Unemployment Insurance (UI) wage records from New York and Illinois to
analyze placement data. Although there were no required benchmarks for employment
retention and wage goals, we analyzed participant outcomes based on UI wage records
obtained on sampled participants as of June 30, 2004, five quarters after the program
ended. We found that 48 of the 98 participants, or 49 percent, had wages during these
five quarters. Employment status details on the 98 sampled participants are presented
as follows:


                                    98 Sampled Participants



                                                                      Not placed in employment

                                                                      Employed in one quarter
                          39%
                                                     51%              Employed in two quarters
                         ($3,749)
                                                                      Employed in three or more
                                                                      quarters


                          4%        6%

                    ($891)     ($1,224)


     Amounts in parentheses represent average quarterly wages.




10                                                    U.S. Department of Labor—Office of Inspector General
                                                                          Report Number: 02-06-201-03-386
                                                                      Welfare-to-Work Grant
                                                           National Puerto Rican Forum, Inc.



Recommendation

We recommend that the Assistant Secretary for Employment and Training:

3. Ensure NPRF obtains and maintains accurate performance information on current
   and future awards, as required by grant provisions.

Agency Response

NPRF stated that there were extenuating circumstances (the fire and moves) that
made it impossible for all documentation to be provided to the auditors. However,
it has no doubt that the service levels reported by NPRF were correct.

Further, it stated that verification of employment was obtained by the Human
Resource Administrations of Chicago and NYC once the employment
confirmation document was forwarded to them by NPRF. However, local
municipalities were not required to forward NPRF written documentation of the
verifications. NPRF acknowledges that this was an error in hindsight.

OIG Conclusion

We have considered NPRF’s response to the draft report. No additional information
was provided that materially affects the report. Therefore, the report findings remain
unchanged. The recommendations will be resolved during DOL’s formal audit
resolution process.



Elliot P. Lewis
February 23, 2006




U.S. Department of Labor—Office of Inspector General
Report Number: 02-06-201-03-386                                                          11
Welfare-to-Work Grant
National Puerto Rican Forum, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




12                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 02-06-201-03-386
                                                                  Welfare-to-Work Grant
                                                       National Puerto Rican Forum, Inc.




Exhibit




U.S. Department of Labor—Office of Inspector General
Report Number: 02-06-201-03-386                                                      13
Welfare-to-Work Grant
National Puerto Rican Forum, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




14                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 02-06-201-03-386
                                                                      Welfare-to-Work Grant
                                                           National Puerto Rican Forum, Inc.

                                                                                  EXHIBIT


                          National Puerto Rican Forum, Inc.
                Schedule of Claimed, Sampled and Questioned Costs
                  For the Period October 1, 1999 to March 31, 2003




       Cost Category           Claimed Costs       Sampled Costs Questioned Costs
 Salaries and Wages                 $1,502,710         $1,502,710             $122,764
 Fringe Benefits                       491,161           491,161                 40,119
 Travel                                  21,666             1,128                      0
 Supplies & Others                   1,112,039           412,255                230,008
 Subcontractor                         588,367           230,083                       0
 Indirect Costs                        278,373           205,262                 31,189
 Total                               $3,994,316        $2,842,599              $424,080




U.S. Department of Labor—Office of Inspector General
Report Number: 02-06-201-03-386                                                            15
Welfare-to-Work Grant
National Puerto Rican Forum, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




16                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 02-06-201-03-386
                                                                  Welfare-to-Work Grant
                                                       National Puerto Rican Forum, Inc.




Appendices




U.S. Department of Labor—Office of Inspector General
Report Number: 02-06-201-03-386                                                      17
Welfare-to-Work Grant
National Puerto Rican Forum, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




18                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 02-06-201-03-386
                                                                   Welfare-to-Work Grant
                                                        National Puerto Rican Forum, Inc.

                                       APPENDIX A
BACKGROUND


NPRF is a not-for-profit organization whose mission is to empower Latinos and other
minorities to achieve socio-economic parity through education and economic
advancement. NPRF provides services to hard-to-employ individuals in areas covering
adult literacy education, job skill development and job placement. In addition to the
WtW grant, NPRF received funding under the U.S. Department of Labor’s Workforce
Investment Demonstration Projects for Community-Based Organizations to provide
technical assistance to its affiliates.

On September 30, 1999, NPRF received a WtW competitive grant in the amount of
$3,994,316. The period of performance was October 1, 1999 through
March 31, 2002, extended with a modification to March 31, 2003. The grant’s
performance goals were to serve 400 participants, and place 324 participants into
unsubsidized employment. NPRF administered the WtW contract in New York City and
Chicago.

The grant required NPRF to provide transitional assistance to shift welfare recipients
into unsubsidized employment providing good career potential for achieving economic
self-sufficiency. NPRF provided English as a Second Language, General Educational
Development, Microsoft Office, math, and resume writing classes. Projects proposed to
enhance a community’s ability to move eligible individuals into self-sustaining
employment, create upward mobility paths and higher earning potential for WtW
participants, and achieve sustainable improvement in the community’s service
infrastructure for assisting welfare recipients.




U.S. Department of Labor—Office of Inspector General
Report Number: 02-06-201-03-386                                                       19
Welfare-to-Work Grant
National Puerto Rican Forum, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




20                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 02-06-201-03-386
                                                                      Welfare-to-Work Grant
                                                           National Puerto Rican Forum, Inc.

                                                                            APPENDIX B
OBJECTIVES, SCOPE, METHODOLOGY, AND CRITERIA

Objectives

The Office of Inspector General conducted an audit of the WtW Grant awarded to
NPRF, grant number Y-7889-9-00-81-60 in the amount of $3,994,316. Our objectives
were to determine the following:

   •    Were costs reasonable, allowable and allocable to the WtW Grant?

   •    Were participants eligible for the program?

   •    Were performance results measured, reported and achieved?

Scope

Our performance audit was conducted in accordance with Government Auditing
Standards issued by the Comptroller General of the United States and included such
tests as we considered necessary to satisfy the audit objectives.

A performance audit includes an understanding of internal controls considered
significant to the audit objectives and testing compliance with significant laws,
regulations, and other compliance requirements. In order to plan our performance
audit, we considered whether internal controls significant to the audit were properly
designed and placed in operation.

We conducted the audit at the NPRF office in Bronx, NY, and included information from
both New York City and Chicago locations for the grant period October 1, 1999 through
March 31, 2003. Fieldwork was conducted from July 26, 2004 to February 23, 2006.

We sampled 71 percent of the reported $3,994,316. We sampled $1,502,710 of
salaries and wages, $491,161 of fringe benefits, $1,128 of travel, $412,255 of supplies
and others, $230,083 of subcontractor costs and $205,262 of indirect costs. Further,
we sampled 98 participants, or 8 percent, from the original list of 1,282 participants
provided by NPRF. Subsequent to the exit conference, NPRF provided a list of 344
additional WtW enrolled participants. Based on the results of our review of sampled
participants, and NPRF substantially exceeding its enrollment goal of serving 400
participants, we considered an additional test of participant files unnecessary.




U.S. Department of Labor—Office of Inspector General
Report Number: 02-06-201-03-386                                                          21
Welfare-to-Work Grant
National Puerto Rican Forum, Inc.

Methodology

We obtained an understanding of internal controls through inquiries with appropriate
personnel, inspection of relevant documentation, review of the answers to an internal
control questionnaire provided by NPRF’s managers, and observation of NPRF’s
current operations. The nature and extent of our testing was based on the auditors’
judgment.

We audited claimed costs as reported in the grantee’s FSR. For personnel costs, we
applied analytical procedures as well as non-statistical selection of specific salary
distribution records to verify the reasonableness and allocability of salary charges. For
non-personnel costs, we used stratified statistical sampling to test account transactions
and balances. We sampled indirect cost pool expenditures and applied grant
requirements to determine the reasonableness of claimed indirect costs. We examined
general ledger journals and supporting documentation such as canceled checks,
vouchers, and invoices.

To determine accuracy in reported enrollment and placement, we requested from NPRF
listings of participants enrolled and placed. From the enrollment listing provided, we
statistically selected 98 participants and reviewed their participant files for eligibility,
services provided and employment outcomes.

To determine if eligibility requirements had been properly applied, we examined a
statistical sample of 98 participant files from the Chicago and New York City locations.
The grant requires that a minimum of 70 percent of WtW funds must be spent to benefit
hard to employ individuals. This requirement was determined by Illinois and New York
City Human Resource Administrations (HRA). We verified that each participant file
contained a HRA referral letter with the appropriate information. To analyze
placements, we obtained UI information for sampled participants for the period
January 1, 2000 to June 30, 2004.

Criteria

The audit was performed using the grant agreement and the following criteria:

     •     20 CFR Part 645 “Provisions Governing Welfare-To-Work Grants”

     •     29 CFR Part 95 “Grants And Agreements With Institutions Of Higher Education,
           Hospitals, And Other Non-Profit Organizations, And With Commercial
           Organizations, Foreign Governments, Organizations Under The Jurisdiction Of
           Foreign Governments, And International Organizations”

     •     OMB Circular A-122 “Cost Principles for Non-Profit Organizations”

     •     Social Security Act, Title IV “Grants to States for Aid and Services to Needy
           Families with Children and for Child-Welfare Services”


22                                        U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 02-06-201-03-386
                                                                    Welfare-to-Work Grant
                                                         National Puerto Rican Forum, Inc.

                                                                          APPENDIX C
ACRONYMS AND ABBREVIATIONS


   CFR               Code of Federal Regulations

   FPO               ETA Federal Project Officer

   FSR               WtW Competitive Grant Cumulative Quarterly Financial Status
                     Report

   HRA               Human Resource Administration

   NPRF              National Puerto Rican Forum, Inc.

   OIG               Office of Inspector General

   OMB               Office of Management and Budget

   TANF              Temporary Assistance for Needy Families

   UI                Unemployment Insurance

   WtW               Welfare-to-Work




U.S. Department of Labor—Office of Inspector General
Report Number: 02-06-201-03-386                                                        23
Welfare-to-Work Grant
National Puerto Rican Forum, Inc.




                   PAGE HAS BEEN INTENTIONALLY LEFT BLANK




24                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 02-06-201-03-386
                                                                  Welfare-to-Work Grant
                                                       National Puerto Rican Forum, Inc.

                                                                      APPENDIX D
AGENCY RESPONSE TO DRAFT REPORT




U.S. Department of Labor—Office of Inspector General
Report Number: 02-06-201-03-386                                                      25
Welfare-to-Work Grant
National Puerto Rican Forum, Inc.




26                                  U.S. Department of Labor—Office of Inspector General
                                                        Report Number: 02-06-201-03-386
